                                                                        .- I

                                              NATIONAL SCIENCE FOUNDATION
                                               OFFICE OF INSPECTOR GENERAL
                                                 OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

Case Number: I04030011                                                     11        Page 1 of 1



        We received an allegation that a company,' which had received and Small Business Innovation
        Research Phase I and Phase I1 awards: was misusing NSF funds. Our investigation revealed no
        proof directly linking funds to any wrongdoing.

        Accordingly, this case is closed.




SF OIG Fonn 2 (1 1/02)
